Report No. D-2008-127          August 29, 2008




    Spider XM-7 Network Command Munition
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
APL                           Anti-Personnel Landmines
ATK                           Alliant Techsystems
CCS                           Close Combat System
DCMA                          Defense Contract Management Agency
EVMS                          Earned Value Management System
FAR                           Federal Acquisition Regulation
LRIP                          Low-Rate Initial Production
MOA                           Memorandum of Agreement
PEO                           Program Executive Officer
                                      INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704



                                                                                   August 29,2008      .


MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY


SUBJECT: Acquisition of the Spider XM-7 Network Command Munition
         (Report No. D-2008-127)

We are providing this report for your infonnation and use. We considered your comments on      c;t
draft of tIlls report when prepming the final report.

Comments on the draft of this report confolmed to the requirements of DoD Directive 7650.3 and
left no unresolved issues. Therefore, we do not require any additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to Mr. John E. Meling at
(703) 604-9091 (DSN 664-9091) or Ms. Lisa M. Such at (703) 604-9284 (DSN 664-9284). The
team members are listed inside the back cover.




                                          Richard B. Jolliffe
                                          Assistant Inspector General
                                          Acquisition and Contract Management
Report No. D-2008-127 (Project No. D2007-D000AE-0194.000)               August 29, 2008


               Results in Brief: Acquisition of the Spider
               XM-7 Network Command Munition

What We Did                                              What We Recommend
Our audit objective was to evaluate the overall          We recommend that the Army Project Manager,
management of the Spider XM-7 Network                    Close Combat Systems; the Commander,
Command Munition (Spider) program.                       Defense Contract Management Agency,
Specifically, we determined whether                      Munitions and Support Systems, Picatinny
management cost effectively developed and                Arsenal, New Jersey; and the Commander,
readied the program for the production and               Defense Contract Management Agency, Boston,
deployment phase of the acquisition process and          Massachusetts, establish a performance-based
implemented best business practices that are             memorandum of agreement for the Spider
available through acquisition initiatives.               program focused on the program office’s top
                                                         priorities and risk areas.
What We Found
We determined that the Army, Program                     Client Comments and Our
Executive Office for Ammunition and the                  Response
Project Manager, Close Combat Systems were               The Project Manager, Close Combat Systems
successfully developing and readying the Spider          and the Director, Headquarters, Defense
program for the production and deployment                Contract Management Agency responding for
phase of the acquisition process in the area of          the Commander, Defense Contract Management
requirements and capabilities, testing, systems          Agency, Munitions and Support Systems,
engineering, contracting, acquisition strategy,          Picatinny Arsenal, New Jersey; and the
and funding. However, we determined that the             Commander, Defense Contract Management
Commander, Defense Contract Management                   Agency, Boston, Massachusetts, concurred with
Agency, Munitions and Support Systems,                   our recommendation. We consider the
Picatinny Arsenal, New Jersey, did not establish         concurrences responsive to our recommendation
and document its program surveillance and                and do not require any additional comments.
support requirements in a performance-based
memorandum of agreement between that office
and the Project Manager, Close Combat
Systems, and the Commander, Defense Contract
Management Agency, Boston, Massachusetts,
for the Spider program. As a result, the
commander could not effectively plan and
execute surveillance activities to support desired
program management outcomes for the Spider
program.



                                                         Spider Munition Control Unit

                                                     i
Report No. D-2008-127 (Project No. D2007-D000AE-0194.000)        August 29, 2008


Recommendations Table
Client                           Recommendation             No Additional Comments
                                 Requiring Comment          Required
Army Project Manager,
Close Combat Systems                                                    9

Commander, Defense Contract
Management Agency, Munitions
and Support Systems, Picatinny                                          9
Arsenal, New Jersey

Commander, Defense Contract
Management Agency, Boston,                                              9
Massachusetts




                                          ii
Table of Contents

Results in Brief                                                    i

Introduction                                                        1

       Objectives                                                  1
       Background                                                  1

Finding. Establishing Defense Contract Management Agency Support
          Responsibilities                                          5

       Recommendation, Client Comments, and Our Response            9

Appendices

       A. Scope and Methodology                                    10
             Review of Internal Controls                           11
             Prior Coverage                                        11
       B. Other Matter of Interest                                 12

Client Comments

       Department of the Army                                      13
       Defense Contract Management Agency                          15
Introduction
Objectives
Our audit objective was to evaluate the overall management of the Army’s Spider XM-7
Network Command Munition (Spider) program. Specifically, we determined whether
management cost effectively developed and readied the program for the production and
deployment phase of the acquisition process and implemented best business practices.
The scheduled date for a full-rate production decision is April 2009. We also evaluated
the internal controls as they related to the overall objective. See Appendix A for a
discussion of the audit scope and methodology.

Background
Landmines
A landmine is an explosive device used to destroy or damage equipment or personnel.
The anti-personnel landmine (APL) is a landmine designed to either kill or incapacitate
victims on foot. The U.S. has maintained over the years an arsenal of “persistent,”
“dumb,” or “non-self-destructing” APLs, which are munitions that remain lethal
indefinitely and can affect civilians long after the military action is over. Used either
tactically or operationally, APLs can be used either in a limited capacity to disrupt an
enemy’s progress or in a long-term capacity such as in border protection.

Landmine Policy
In 1998, the United States issued policy designed to phase out and eventually eliminate
all APLs outside Korea. The policy stated that by 2003, the United States would end the
use of APLs except in Korea. A continued military requirement for APLs in Korea exists
for reinforcement of the demilitarized zone. The policy also directed DoD to initiate a
research program to identify and develop alternatives to APLs used in Korea with the
goal of fielding that alternative by 2006. DoD initiated a three-track approach with the
Department of the Army taking the lead to develop non-self-destruct alternatives to APLs
used in Korea.

On February 27, 2004, the United States announced a new position on landmines with the
issuance of the National Landmine Policy. This policy stated that landmines still had a
valid and essential role in military operations. The new policy states that the United
States is committed to eliminating the humanitarian risks posed by persistent landmines.
After the year 2010, the United States will no longer use persistent landmines and will
continue to develop alternatives to current persistent APLs that incorporate self-
destructing/self-deactivating technology and preserve military capabilities.

Spider Mission and System Description
The Spider system is designed to provide perimeter defense and flank protection to the
warfighter. As an alternative to persistent APLs, the Spider program was initiated to
address humanitarian concerns while still meeting essential military requirements. The
Spider system consists of 3 main components to include up to 63 munition control units,
a remote control station, and a repeater for extending the range of communications. Each

                                             1
munition control unit can contain up to six individual lethal grenades. The munitions are
situated on the battlefield by the warfighter and employ a “man-in-the-loop” function that
provides the operator control of the network of munitions from a distance. The operator
deploys tripwires that provide a sensing network that, when tripped, wirelessly signal the
operator who can then choose to fire one or multiple grenades with either lethal or non-
lethal effects. The system was also initially developed with a “battle override” mode that
triggers the grenades as soon as the tripwire is touched. However, the Army
subsequently determined that the “battle override” mode was not required to provide the
needed force protection and in July 2008, the Army announced that it would field the
Spider system with only a “man-in-the-loop” function. The Spider system can also be
ordered to self-destruct so that the munitions do not pose a threat to noncombatants or
leave a residual hazard. The system will be recoverable and reusable if not previously
fired.

Program Management
The Spider program is under the management of the Program Executive Officer (PEO)
for Ammunition. The PEO’s mission is to develop and procure conventional and
advanced munitions to increase the combat power of the soldier. The Project Manager,
Close Combat Systems (CCS) is responsible for managing the Spider program and
reports to the PEO. The PEO for Ammunition is the milestone decision authority for the
program. Research, development, test, and evaluation, and procurement funds for the
Spider program total approximately $586 million to acquire 532 Spider systems and
263 ammunition re-load sets by FY2013. The program entered the low-rate initial
production phase (LRIP) of the acquisition process in June 2006. The Project Manager,
CCS plans to schedule the full-rate production decision for April 2009.

The figure below provides a depiction of the Spider system.

                            Repeater
                            Extends the range of
                            communications.




     Remote Control Station (RCS)
     The remote control unit (RCU)
     together with the transceiver                      Munition Control Unit (MCU)
     makes up the RCS. Enables man-                     Hand emplaced, remotely
     in-the-loop command and control                    controlled munitions. Detects
     of all munitions in the field.                     intrusions, controls lethal and non-
                                                        lethal munitions.




                                                   2
Procurement History
In November 1997, the Army notified industry of an opportunity to develop a
replacement for the non-self-destruct function of the APL. Potential offerors were
briefed on possible alternative technologies, policies, and key system attributes and
responded to the opportunity with white papers describing their concepts and capabilities.
Each white paper was evaluated and the top 12 contractors were awarded purchase orders
to prepare proposals. Alliant Techsystems (ATK) and Textron Systems Corporation
(Textron) were awarded contracts to develop and furnish prototypes from proposals
received for the program definition and risk reduction phase of the acquisition process.

To support the engineering, manufacturing, and development phase of the acquisition
process, the Government intended to select just one contractor. Both ATK and Textron
updated and submitted their proposals. A source selection board evaluated each proposal
and determined that both had shortfalls. To overcome the shortfalls, the source selection
board concluded that the most operationally effective system would incorporate the best
features of each of the competing systems.

ATK and Textron supported the source selection board’s recommendation to integrate the
best of both concepts into one system and advised the Government that they would
develop a joint business arrangement to support the system development and production
phases of the acquisition process. The Principal Under Secretary of Defense (Acquisition,
Technology, and Logistics) approved the Project Manager, CCS proposed change in the
acquisition strategy to award a sole-source contract.

In June 2000, ATK and Textron entered into a joint venture agreement for the Spider
program, establishing a 50-50 work share split based on proposed costs between the two
companies for the system development and production phase for the Spider program.
ATK is responsible for the munition control unit and munitions. Textron is responsible
for developing the remote control unit and for providing overall system integration. On
June 30, 2006, the Army awarded a sole-source contract to ATK and Textron for
$31.13 million for LRIP. On March 23, 2007, the Army increased the contract value to
$116.13 million through a contract modification.

Role of Defense Contract Management Agency in
Contract Surveillance
The Defense Contract Management Agency (DCMA) is an independent support agency
responsible for assessing contractor manufacturing, production, and quality assurance
processes. DCMA employs administrative contract officers to perform contract
oversight. Specifically, DCMA is responsible for ensuring that goods are delivered on
time, within cost, and that they meet performance requirements. The Federal Acquisition
Regulation (FAR) 42.2, “Contract Administration Services,” states that contracting
officers have the authority to delegate contract administration services to DCMA.
Barring any limitations in the contracting officer’s delegation, DCMA is responsible for
all contract administration functions listed in FAR Part 42.3, “Contract Administration
Office Functions.”




                                            3
Spider Management Assessment
We determined that, overall, the Project Manager, CCS was successfully developing and
readying the Spider program for the production and deployment phase of the acquisition
process within established cost, schedule, and performance parameters in the areas of
requirements and capabilities, testing, systems engineering, contracting, acquisition
strategy, and funding. However, we did find a need for a performance-based
memorandum of agreement (MOA) between the Project Manager, CCS and DCMA to
document DCMA program surveillance and support requirements as discussed in the
finding of this report.




                                           4
Finding. Establishing Defense Contract
Management Agency Support
Responsibilities
The Commander, Defense Contract Management Agency, Munitions and Support
Systems, Picatinny Arsenal, New Jersey (DCMA Springfield), as head of the lead
contract management office for the Spider program, did not establish and document
program surveillance and support in a performance-based MOA with the project
manager. Further, the Commander, DCMA Springfield did not use a separate annex to
an MOA to delineate responsibilities for providing contract administration support at
Textron—the other contractor in the joint venture—to the Commander, Defense Contract
Management Agency, Boston, Massachusetts (DCMA Boston). This condition occurred
because the Commander, DCMA Springfield did not comply with the provisions of the
FAR, the DCMA Instruction, and the DCMA Guidebook for preparing an MOA. As a
result, the Commander, DCMA Springfield did not have the information and agreement
needed to provide the Project Manager, CCS with effective oversight of contractors’
efforts during LRIP for the Spider program, to include an annex in the MOA delineating
DCMA Boston contract administration support responsibilities at Textron.

Regulations and Guidance for Defense Contract
Management Agency Support
Federal and DCMA regulations and guidance define the DCMA role in supporting a
project manager in the development of a weapon system.

Federal Acquisition Regulation
FAR 42.302, “Contract Administration Functions,” specifies the contract administration
functions that Federal organizations normally delegate to contract administration offices.
Those contract administration functions include program status reporting; assessing
contractor compliance with contract terms; surveilling contractor engineering efforts and
management system; and reviewing and evaluating the contractor’s logistic support,
maintenance, and modification programs. The FAR also specifies that the Contract
Administration Officer shall perform contract administration functions in accordance
with the contract terms and, unless otherwise agreed to in an interagency agreement, the
applicable regulations of the servicing agency.

DCMA Policy and Guidance
The DCMA Instruction and the DCMA Guidebook provide mandatory policy and
supplemental guidance for performing the contract management functions listed in the
FAR. Specifically, they provide the DCMA staff with direction for performing outcome-
based program management support to DoD acquisition programs, including direction
for:




                                            5
   •   establishing a performance-based MOA between the lead contract management
       office and the program manager that focuses on desired program outcomes,
   •   establishing plans that detail the surveillance activities necessary to meet the
       provisions of the MOA, and
   •   establishing and managing program support teams led by program integrators to
       carry out the activities documented in the plans.

In addition, the DCMA Guidebook specifies that when a contract is awarded to multiple
prime contractors, as in the case of a joint venture, a lead contract management office
must be identified and is responsible for coordinating and developing the overarching
MOA with program managers and the other contract management offices. Further, in
situations where the program crosses DCMA district lines, the lead contract management
office should establish separate annexes to the MOA to clarify internal roles and
responsibilities.

Establishing the MOA
DCMA Springfield did not adequately establish and document its support in an MOA for
the Spider program. The DCMA Instruction and the DCMA Guidebook specify that
DCMA personnel should establish with the program managers performance-based MOAs
that provide in annexes the following mandatory information:
    • Customer Outcomes: Annex A is to document customer (program manager)
        priorities for outcomes and for DCMA performance commitments.
    • Cause-and-Effect Analysis: Annex B is a cause-and-effect analysis that links
        metrics and standards established in the body of the MOA to applicable desired
        customer outcomes.
    • Activity That DCMA Does Not Plan to Engage In or Plans to Deemphasize:
        Annex C is to clarify what the MOA does not cover or include in the metrics
        describing DCMA’s performance commitments. Annex C also is to document
        any contract administration functions specified in FAR 42.302 that DCMA does
        not plan to provide under the MOA.

During the audit, the project manager and representatives from DCMA Springfield and
Boston stated that a performance-based MOA for LRIP was not established for the Spider
program. Because there was no negotiated and documented MOA, DCMA Springfield
did not establish the required annexes to identify the project manager’s priorities related
to the outcomes or DCMA performance commitments. Regardless, DCMA Springfield
and Boston were performing contract support functions at ATK and Textron.
Specifically, DCMA representatives attended meetings, performed system software and
engineering surveillance, performed quality assurance activities as directed by the
Quality Assurance Letter of Instruction, and monitored production transition activities.
In addition, DMCA provided monthly program status reports to the Project Manager,
CCS.




                                            6
Factors Affecting Establishment of a Performance-Based
MOA
Representatives from DCMA Springfield attributed the absence of an MOA, in part, to
changes in how DCMA performed contract management functions. Specifically, DCMA,
before the award of the LRIP contract for the Spider program, transitioned from a
management philosophy that focused on compliance to one focused on performance. As
a result of the transition, DCMA revised its previous instruction, guidance, and the format
of MOAs. The new DCMA Instruction and DCMA Guidebook recommended that MOAs
include performance metrics, standards, customer desired outcomes, and DCMA
oversight activities. Because a performance-based MOA was now required for the Spider
program, a DCMA Springfield official stated that they delayed preparing an MOA until
the staff completed training.

In addition to the transition, DCMA representatives identified other factors that
contributed to the absence of an MOA for the Spider program. These included:

   •   a change in command from DCMA Twin Cities to DCMA Springfield;
   •   direction from the Director, Ground Systems and Munitions Division, DCMA
       Springfield to focus DCMA resources on another program; and
   •   uncertainty associated with ongoing negotiations between the Commander,
       DCMA Springfield and the PEO for Ammunition regarding “overarching”
       outcomes for acquisition programs under the oversight of the PEO for
       Ammunition.

Consequence of Not Coordinating an MOA
Without a comprehensive performance-based MOA, DCMA could not be assured that it
was providing the Project Manager, CCS with the most effective oversight of contractor
efforts for the LRIP phase of the Spider program. For example, as the executive agent for
the earned value management system (EVMS), DCMA is responsible for reviewing
EVMS plans and verifying initial and continuing compliance with EVMS criteria.
During the audit, we determined that DCMA was not performing EVMS analysis on the
LRIP contract and that the contracting officer withheld EVMS data analysis
responsibilities from DCMA. Although the Project Manager, CCS had program office
personnel performing their own EVMS analysis, DCMA review and analysis of EVMS
data is important because it provides an independent and objective assessment of program
cost and performance and is an effective tool that acquisition decision makers can use to
make informed decisions. Without this independent and objective analysis, the program
office may not be able to effectively monitor progress and manage the program.

Further, without a performance-based MOA, DCMA was not able to allocate resources in
the most efficient and effective way. An MOA defines the outcomes for DCMA support
based on assessed risk and program need. Absent a performance-based MOA, DCMA
and the Project Manager, CCS did not have a common understanding regarding cost,
schedule, and performance goals and priorities. A common understanding of program
goals and priorities is essential to enable DCMA to target its resources to allow for


                                             7
maximum oversight in support of the mission and to ensure that program office and
DCMA surveillance activities are not duplicated. Performance-based MOAs typically
include an appendix that shows the number of hours required by DCMA staff to execute
agreed-upon project manager priorities and outcomes. Since DCMA did not coordinate a
performance-based MOA with the Project Manager, CCS, it was not in a position to
make appropriate decisions concerning staff assigned to the Spider program.

Corrective Actions Taken During the Audit
In October 2007, as a result of our audit work, DCMA Springfield and DCMA Boston
began performing EVMS analysis for the Spider program. In January 2008, DCMA
Springfield issued a memorandum to the contracting officer requesting that he amend the
delegation of contract administration letter to add EVMS to the list of functions that the
DCMA administrative contracting officer would perform. The contracting officer
amended the delegation letter in February 2008, giving those EVMS review functions to
DCMA.

Conclusion
DoD’s monitoring of contractor performance and cost is essential for protecting the
interests of the Government. By assuring that contracted products meet performance
standards set forth in the contract and that the prices paid are reasonable, accurate, and
within the scope of the contract, DoD is fulfilling its fiduciary responsibilities.
Accordingly, contracting and DCMA personnel need to sufficiently monitor contractors’
performance to decrease the risk of increased contract cost, poor performance, and
schedule slips.

Client Comments on Background and Finding and Audit
Response
Army Comments on Background
The Project Manager, Close Combat Systems stated that the Army will not field the
Spider system with a “battle override” function allowing munitions to be triggered by
touching a tripwire. Instead, he stated that the Army will field the Spider system with a
“man-in-the loop” capability only.

Audit Response
We revised the report to clarify that the Army initially planned to field the Spider system
with a “battle override” capability. We also inserted that the Army, in July 2008, decided
to field the system with only a “man-in-the-loop” function which allows munitions to be
fired solely by direct action from an operator.


Defense Contract Management Agency Comments on
Establishing an MOA
The Director stated that DCMA Twin Cities established an MOA with the Spider program
within 3 weeks of the basic Spider low-rate initial production contract awarded on June 30,

                                             8
2006. He further stated that on March 23, 2007, the contract was modified and during that
time DCMA responsibility for the Spider program transferred from DCMA Twin Cities to
DCMA Springfield. For those reasons and his desire to establish an overarching agency
level performance-based MOA with the Program Executive Office for Ammunitions, the
Director stated that DCMA Springfield was instructed to delay developing another MOA.
See the Clients Comments sections of this report for the complete text of the Director’s
comments.

Audit Response
A MOA for the Spider program was not established within 3 weeks of the award of the basic
Spider LRIP contract on June 30, 2006. In a subsequent conversation with DCMA
Springfield, they agreed that a proposed MOA was drafted; but never finalized.

Recommendation, Client Comments, and Our Response
We recommend that the Army Project Manager, Close Combat Systems; the
Commander, Defense Contract Management Agency, Munitions and Support Systems,
Picatinny Arsenal, New Jersey; and the Commander, Defense Contract Management
Agency, Boston, Massachusetts, negotiate and establish a performance-based
memorandum of agreement for the Spider XM-7 Network Command Munition, to
include an annex specifying contract administration support roles and responsibilities
for the Commander, Defense Contract Management Agency, Boston, Massachusetts.


Army Project Manager, Close Combat Systems
The Project Manager, Close Combat Systems concurred with the recommendation. He stated
that a performance-based MOA should be established to fully document the roles and
responsibilities for DCMA in support of the Spider program. He stated that DCMA met with
the Project Manager, Close Combat Systems to finalize a performance-based MOA, which he
expects to be issued by October 2008. The Project Manager, Close Combat Systems further
stated that although a performance-based MOA was not formalized, DCMA Springfield and
DCMA Boston have performed support functions for the Spider program throughout the
low-rate initial production phase. See the Client Comments section of this report for the
complete text of Project Manager, Close Combat Systems’ comments.


Defense Contract Management Agency
The Director, Headquarters, Defense Contract Management Agency, responding for the
Commander, DCMA, Munitions and Support Systems, Picatinny Arsenal, New Jersey; and
the Commander, DCMA, Boston, Massachusetts, concurred with the recommendation stating
that the Director, DCMA Springfield has met with Project Manager, Close Combat Systems
and they anticipate having a signed performance-based MOA by October 2008. He further
stated that the performance-based MOA will include a supporting annex specifying the
contract administration support required from DCMA Boston.




                                           9
Appendix A. Scope and Methodology
We conducted this performance audit from May 2007 through July 2008 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our finding and
conclusions based on our audit objectives.

During the audit, we evaluated whether management was cost effectively developing and
readying the Spider program for the full-rate production phase of the acquisition process.
To accomplish this objective we reviewed the program’s requirements and capabilities,
testing, systems engineering, contracting, acquisition strategy, and funding documents
dated from November 1997 through March 2008:
    • Program documents including the Spider mission need statement,
        November 24, 1997; analysis of alternatives, April 1998; the operational
        requirements document, December 1, 2000; draft memorandum of agreement
        between DCMA Twin Cities, DCMA Boston, and the Project Manager, CCS,
        November 15, 2002; risk management plan, December 16, 2002; production
        qualification test, November, 2005; acquisition plan, November 7, 2005; test and
        evaluation master plan revision 3.0, January 17, 2006; key performance
        parameters and capabilities production document approval, April 4, 2006;
        capability production document, May 2006; production qualification test, June 13,
        2006; acquisition strategy, June 29, 2006; low-rate initial production acquisition
        decision memorandum, June 29, 2006; acquisition program baseline agreement,
        May 31, 2007; system engineering plan, November 16, 2006; program deviation
        report, May 25, 2007; system assessment for initial operational testing,
        June 6, 2007; and information support plan, July 24, 2007.

   •   Contractual documents for the Spider, including the joint venture agreement
       between ATK and Textron regarding the non-self-destruct alternative, June 19,
       2000; joint venture agreement signature page, June 20, 2000; contract DAAE30-02-
       C-1118 with ATK and Textron, September 24, 2002; justification and approval for
       other than full and open competition for the system design and development phase,
       February 29, 2000; contract W15QKN-06-C-0154 with ATK and Textron, June 30,
       2006; justification and approval for other than full and open competition for the first
       phase of low-rate initial production phase, February 28, 2006; contract W15QKN-
       06-C-0154, modification P00002 with ATK and Textron, March 23, 2007; and a
       justification and approval for other than full and open competition for the second
       phase of low-rate initial production, September 17, 2007.

   •   Other-than-DoD documents, including Presidential Decision Directive 64,
       “Humanitarian Demining,” May 1998; U.S. Department of State Fact Sheet,
       “New United States Policy on Landmines: Reducing Humanitarian Risk and
       Saving Lives of United States Soldiers,” February 27, 2004; and U.S. Department
       of State Fact Sheet, “Landmine Policy White Paper,” February 27, 2004.


                                            10
We also contacted the staffs of the Offices of the Under Secretary of Defense for
Acquisition, Technology, and Logistics; the Assistant Secretary of the Army (Acquisition,
Logistics, and Technology); the Army Deputy Chief of Staff (G-8); the Director of
Operational Test and Evaluation; the Joint Capability Development Directorate (J-8); the
Program Executive Officer, Close Combat Systems; the U.S. Army Test and Evaluation
Command; the U.S. Army Training and Doctrine Command; and the Defense Contract
Management Agency to determine whether management was effectively implementing the
requirements and systems engineering processes and adequately applying contracting and
funding procedures. In addition, we also contacted and visited contractor representatives
from ATK and Textron to determine the contractors’ perspectives concerning their
management of the Spider program.

Review of Internal Controls
We determined that a material internal control weakness in DCMA existed as defined by
DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006. DCMA had not established a performance-based memorandum of
agreement between DCMA and the Spider program for the LRIP phase of the acquisition
process. Implementing the recommendation will improve the efficiency and
effectiveness of DCMA’s surveillance of the Spider program. We will provide a copy of
this report to the senior officials responsible for internal controls in DCMA.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Use of Technical Assistance
Engineers from the Technical Assessment Directorate of Investigative Policy and
Oversight, Department of Defense Office of Inspector General assisted in the audit. The
engineers evaluated and reviewed the Spider program documentation to determine
whether technical and engineering documents supporting the program fulfilled the
requirements of the applicable DoD test and evaluation and systems engineering policy
and guidance, and general engineering principles.

Prior Coverage
No prior coverage has been conducted on the Spider XM-7 Network Command Munition
during the last 5 years.




                                          11
Appendix B. Other Matter of Interest
During the audit, we noted this other matter of interest concerning DCMA access to
contract information for the Spider program.

Access to Invoicing and Contract Administration Data
During the audit we identified that DCMA Boston did not have access to the Wide Area
Work Flow application and although they had access to aggregate cost and schedule data
from the joint venture in Mechanization of Contract Administration Services, DCMA
Boston could not view Textron’s cost and schedule data separate from ATK’s cost and
schedule data. The Wide Area Work Flow and the Mechanization of Contract
Administration Services are two key DoD sources of information for tracking contract
delivery schedules, invoices, vouchers, inspection and receiving reports, and payment
authorizations. Without access to these systems, DCMA Boston did not have all the cost
and schedule data that it needed to determine whether Textron was fully performing
within the terms and conditions of the contract. Neither DCMA Springfield nor the
Project Manager, CCS were aware that DCMA Boston could not access or review the
information in those systems. After we identified that DCMA Boston could not view
Textron’s contract, invoice, and delivery data retained in Mechanization of Contract
Administration Services and Wide Area Work Flow, DCMA Boston worked with DCMA
Springfield and Textron to obtain the necessary data in order to track Textron’s costs and
production schedules.




                                           12
Department of the Army Comments




                  Click to add JPEG file




                                 13
Click to add JPEG file




               14
Defense Contract Management Agency Comments




                 Click to add JPEG file




                                15
Click to add JPEG file




               16
Click to add JPEG file




               17
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the Department
of Defense Office of Inspector General who contributed to the report are listed below.

Richard B. Jolliffe
John E. Meling
Lisa M. Such
Bernard M. Vennemann
Zorayma Torres-Alvarez
Jessica I. Vandemark
Rachel A. Meyer
Meredith H. Johnson
